<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-211]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-211

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 29, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












        Available via the World Wide Web: http://www.govinfo.gov

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-855PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 























               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director



























                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 29, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     2
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........     3
Harris, Hon. Kamala, U.S. Senator from the State of California...     3
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York     4
Markey, Hon. Edward J., U.S. Senator from the State of 
  Massachusetts..................................................     5
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     6
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     7
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     9

                        PRESIDENTIAL NOMINATIONS

Kathleen Hartnett White to be a Member of the Council on 
  Environmental Quality..........................................    13
Andrew Wheeler to be Deputy Administrator of the Environmental 
  Protection Agency..............................................    14

                         COMMITTEE RESOLUTIONS

Lease, Pension Benefit Guaranty Corporation, Washington, DC, PDC-
  10-WA17........................................................    15
Lease, Department of Defense, Office of the Secretary of Defense 
  Joint Staff, Suffolk, Virginia, PVA-01-SU17....................    16
Lease, Department of Homeland Security, Immigration and Customs 
  Enforcement, Washington, DC, PDC-03-WA17.......................    17
Lease, Agency for International Development, Washington, DC, PDC-
  12-WA17........................................................    19
Lease, Department of Homeland Security, Federal Emergency 
  Management Agency, Washington, DC, PDC-02-WA17.................    21
Lease, Internal Revenue Service, Fresno, California, PCA-01-FR17.    23
Lease, Department of Homeland Security, Customs and Border 
  Protection, Office of Information Technology, PVA-01-WA17......    25
Lease, Department of State, Washington, DC, PDC-07-WA17..........    27
Lease, Equal Employment Opportunity Commission, Washington, DC, 
  PDC-09-WA17....................................................    28
Lease, National Institutes of Health, Montgomery and Prince 
  George's Counties, MD, PMD-01-WA17.............................    30
Lease, Securities and Exchange Commission, Washington, DC, PDC-
  11-WA17........................................................    31
Lease, U.S. Department of Veterans Affairs, New Port Richey, 
  Florida, PFL-01-VA17...........................................    32
Lease, U.S. Department of Veterans Affairs, Oahu, Hawaii, PHI-01-
  VA17...........................................................    33
Lease, U.S. Department of Veterans Affairs, Phoenix, Arizona, 
  PAZ-01-VA17....................................................    34
Lease, U.S. Department of Veterans Affairs, Ponce, Puerto Rico, 
  PPR-01-VA17....................................................    35
Lease, U.S. Department of Veterans Affairs, Redding, California, 
  PCA-01-VA17....................................................    36
Lease, U.S. Department of Veterans Affairs, San Antonio, Texas, 
  PTX-01-VA17....................................................    37
Lease, U.S. Department of Veterans Affairs, San Diego, 
  California, PCA-01-VA17........................................    38
Lease, U.S. Department of Veterans Affairs, Tulsa, Oklahoma, POK-
  01-VA17........................................................    39

 
                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, NOVEMBER 29, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Whitehouse, Merkley, Gillibrand, Markey, Harris, and 
Shelby.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order. I want to thank everyone for coming.
    We are here to consider two nominations and 19 General 
Services Administration resolutions.
    We will be voting at roughly 10:20 to accommodate members' 
schedules, but before we vote we will debate and discuss the 
matters before us. The majority will have 10 minutes to speak, 
beginning with my opening statement. The minority will have 10 
minutes to speak, beginning with the Ranking Member's opening 
statement. So, I would ask that the clock please be started on 
the majority time, and I will make a few brief comments, then 
reserve the balance of the majority's time to make additional 
comments after the minority's time has expired.
    The Ranking Member may recognize those members of the 
minority wishing to speak during the minority's time.
    After each side has used its time, we will move to votes as 
soon as a quorum is present.
    After completion of the votes, I would be happy to 
recognize every member who still wishes to speak.
    Today we consider the nomination of Kathleen Hartnett White 
to be a member of the Council on Environmental Quality, CEQ. 
President Trump intends to designate Ms. White as Chair of CEQ 
upon her confirmation by the Senate. Ms. White's experience in 
environmental matters is broad. Neil Bradley, the Senior Vice 
President and Chief Policy Officer of the U.S. Chamber of 
Commerce, wrote this about Ms. White, that she is well suited 
to serving as Chair of the CEQ and has ``wide ranging 
experience relevant to the position.''
    I ask unanimous consent to enter his entire letter into the 
record. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. If confirmed, Ms. White will bring her 
extensive experience to the job at CEQ, and I urge my 
colleagues to vote yes on her nomination.
    We will also consider the nomination of Andrew Wheeler to 
be Deputy Administrator of the Environmental Protection Agency. 
Over 25 years working in the environmental field, Mr. Wheeler 
has proven himself to be a well qualified, experienced, and 
dedicated public servant. Twelve of those years he spent 
working at this Committee as this Committee's Clean Air 
Subcommittee Staff Director and Republican Staff Director and 
Chief Counsel.
    We know what an invaluable contribution Mr. Wheeler will 
make in the protection of America's public health and safety as 
Deputy Administrator of the EPA. I urge my colleagues to vote 
on his nomination in a positive way as well.
    We will also consider 19 resolutions to approve 
prospectuses providing for General Services Administration 
leases. The leases will provide office space for the Pension 
Benefit Guaranty Corporation, the Department of Defense, the 
Immigration and Customs Enforcement Agency for International 
Development, the Federal Emergency Management Agency, the 
Internal Revenue Service, Customs and Border Protection, the 
Department of State, the Equal Employment Opportunity 
Commission, National Institutes of Health, Securities and 
Exchange Commission, and eight Department of Veterans Affairs 
locations.
    I would like to reserve the balance of my time at this 
point and turn to the Ranking Member for his statement and for 
him to recognize members of the minority as he sees fit.
    Senator Carper. Thanks, Mr. Chairman. I am going to refrain 
from speaking at this moment and see if Senator Whitehouse 
would like to make some comments.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Mr. Chairman, thank you.
    A nominee who can't follow the thread from carbon pollution 
to ocean warming to sea level rise, who imagines science that 
is not there and ignores science that is there is a 
preposterous nominee.
    There is a popular legend of the Emperor Caligula 
appointing his horse to the Roman Senate. Had he done that, it 
would have raised important questions. But the real questions 
would not have been about the horse. The horse was just a 
horse. The real questions would have been about the power of 
the Emperor Caligula and the spine of the Roman Senate. 
Discussing the merits of the horse would be pointless.
    Approving this nominee for CEQ would be so preposterous 
that it would be like appointing Caligula's horse in that the 
real question becomes about the power of our fossil fuel 
emperors and the spine of the Senate. This is a moment in which 
the Senate takes its own measure. I guess we are about to see 
the answer.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Merkley, would you like to speak, 
please?

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you very much.
    Today we are on the verge of substantial disservice to the 
American people. Our job as Senators is to ensure the posts in 
the Federal Government are filled by qualified individuals who 
will do the right thing for the public, not execute the agenda 
of the fossil fuel industry. But today we are on voting on 
nominees who deny basic science, ignore public health risks, 
and are riddled with conflicts of interest.
    Ms. White, for example, not only denies that we are 
experiencing the devastating impacts of climate disruption; she 
also tries to tell us more carbon pollution would be good for 
humanity. And she has demonized those who would advance 
renewable energy and diminish pollution as pagans and 
communists.
    In her response to my written questions, she said she would 
``work to ensure that any regulatory actions are based on the 
most up to date and objective scientific data.'' But she made 
this promise directly after casting doubt on the overwhelming 
scientific consensus that human greenhouse gas emissions are 
driving climate disruption.
    She will be charged with running the U.S. Council on 
Environmental Quality, yet she denies there are environmental 
issues left to address. She is choosing to ignore water 
contamination, air pollution, and toxic sites impacting 
communities across our nation.
    It seems unreal that we are considering a nominee so far 
beyond the fringe of even climate deniers, a woman who is not 
an advocate for human health and environmental protection, but 
is an advocate for carbon pollution and completely unqualified 
for this post.
    Mr. Wheeler is the ultimate revolving door lobbyist, no way 
qualified to serve as Deputy Administrator of the EPA. As 
recently as August he lobbied for Murray Energy, a company with 
an extremely long history of environmental and labor 
violations. As a lobbyist for the company, Wheeler personally 
helped Murray Energy formulate a plan for rolling back EPA's 
environmental regulations and undermining the Agency's ability 
to carry out its mission of protecting the health of our planet 
and our people. He personally attended meetings held to discuss 
Energy Secretary Rick Perry's proposal to have the Federal 
Government subsidize putting coal in nuclear plants.
    Time and again he has routinely put the interests of his 
clients above the interests and well being of the American 
people. It is beyond comprehension how this individual, so 
beholden to the fossil fuel industry, so deeply imbedded in a 
record of fighting for private interest at the expense of 
public welfare, could possibly serve in an agency tasked to 
protect our environment and our people.
    I urge my colleagues to reject these nominees.
    Senator Carper. I thank the Senator from Oregon.
    The Senator from California.

           OPENING STATEMENT OF HON. KAMALA HARRIS, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Harris. Thank you.
    I urge my colleagues to vote no on the nominations of Ms. 
White and Mr. Wheeler. These nominations are the latest in a 
pattern by this Administration to send us candidates with work 
experience that directly conflicts the mission that they are 
supposed to execute.
    Earlier this month we voted on a nominee whose job at EPA 
is to oversee the safety of chemicals. Yet this same person 
spent their life promoting dangerous levels of chemicals in 
water and took money from the chemical industry to combat the 
mission of the EPA.
    Today we are considering a fossil fuel lobbyist, Mr. 
Wheeler, to be the second in command at the EPA. We are also 
considering a fossil fuel industry supporter, Ms. Hartnett 
White, to head the Council on Environmental Quality, a nominee 
who has claimed that ``the fossil fuel industry helped end 
slavery.'' So, apparently, she is putting the fossil fuel 
industry right up there with the 13th Amendment.
    Now, let's be clear that extracting, transporting, and 
burning fossil fuels, such as coal and oil and gas, pollute our 
environment. It harms the health of our families and 
communities, and it produces carbon dioxide that contributes to 
climate change. If confirmed, Ms. White will be tasked with 
coordinating Federal environmental efforts, including the 
implementation of the National Environmental Protection Act, 
that works to ensure that Americans can drink clean water and 
breathe clean air.
    She even claimed that we ``already cleaned up our 
environment enough.'' Well, I disagree. There are still far too 
many Americans who are exposed to dangerous environmental 
conditions.
    With these nominees, the Administration is placing 
corporate interests over public health and the economic 
interests of Americans. It is dangerous, morally bankrupt, and 
undermines our ability to create jobs, economic success, and 
healthy communities for all Americans in the years and decades 
ahead.
    In closing, in my home State of California we have over 90 
Superfund sites full of toxic chemicals, one of which is in Los 
Angeles's Harbor Gateway, right next to a Boys & Girls Club 
where young children play. We have not cleaned up our 
environment for these children. We cannot turn our backs on 
Americans' right to live in safe communities without toxins, 
and unfortunately, these nominations have demonstrated no 
interest in meeting this goal.
    My colleagues and I have a responsibility to those 
Americans, and I urge them to join me in voting against these 
nominations.
    Thank you.
    Senator Carper. Thank you.
    The Senator from New York.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Mr. Chairman, Ranking Member, I 
strongly oppose these two nominees, and I urge everyone to vote 
against them.
    I am particularly troubled by Kathleen Hartnett White to 
serve as the Chair of the Council on Environmental Quality. Her 
extreme views, as my colleagues have noted, on issues ranging 
from climate change to the role of science to clean air 
regulations, make her unfit to serve. Mrs. White denies that 
extreme weather is getting worse as a result of climate change, 
despite all the evidence to the contrary. We do not need to 
look any further than this year's hurricane season to see how 
dangerously callous her point of view is.
    My constituents in New York, as well as those in Texas, 
Florida, Puerto Rico, and the Virgin Islands, deserve someone 
leading the CEQ who will take climate change seriously and 
ensure that the Federal Government is doing everything we can 
to make our country more resilient. And it is clear from her 
record in Texas, as well as her past writings and statements, 
that she will side again and again with her patrons in the 
fossil fuel industry, and not the health and well being of our 
constituents.
    I strongly urge a sense of conscience and a no vote.
    Senator Carper. Thanks very much. I reserve my time.
    Senator Markey.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Kathleen Hartnett White, from my perspective, on issue 
after issue, she has made statements and holds views that are 
not just outliers; they are outrageous. Her views aren't just 
incorrect; they are incomprehensible for someone charged to 
lead the coordination of all Federal environmental action. She 
has stated many times that ``carbon dioxide is not a 
pollutant,'' in direct opposition to the ruling of the Supreme 
Court in Massachusetts v. EPA. She has written that 
``renewables are a false hope that simply won't work'' and 
stated that renewable energy is inconsequential, even as we are 
going to have more than 200,000 megawatts and 500,000 workers 
in the wind and solar industries just within the next 3 years.
    Under Ms. Hartnett White, CEQ would no longer stand for the 
Council on Environmental Quality; it would stand for Crazy 
Environmental Quackery. We cannot, at this time, have this type 
of person in charge of the environment in our country.
    I urge a no vote.
    Senator Carper. Thank you, Senator Markey.
    Senator Barrasso. Senator Inhofe.
    Senator Whitehouse. Mr. Chairman, before we go, could I 
just ask unanimous consent? I have a letter from 300 U.S. 
scientists opposing the nomination of Ms. Hartnett White. To 
quote them, ``because one thing more dangerous than climate 
change is lying.'' And I would like to have that letter 
admitted to the record.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Let me just say that comparing Ms. White 
to a horse, as one of our Democrat colleagues just did, to me 
is a new low. It is disturbing, it is demeaning, and it is 
dehumanizing.
    Yesterday, President Obama's Assistant Secretary of Energy, 
Charles McConnell, wrote an op-ed in support of Ms. White, 
which I am going to introduce to the record as well. Mr. 
McConnell explained that ``Listening to her critics, one might 
think she opposes all regulation. That is simply untrue, as her 
record shows.'' He goes on to say, and again, this is President 
Obama's Assistant Secretary of Energy, ``The fact is she has 
always supported and insisted on smart regulation.'' He goes on 
to say, ``Kathleen led the Texas Commission on Environmental 
Quality during an extraordinary period of growth in the Texas 
population, and yet the State realized impressive declines in 
the levels of pollution during that time.'' He cites declines 
in ozone, declines in nitrogen oxide, decline in other 
pollutants. This is President Obama's Assistant Secretary of 
Energy.
    I ask unanimous consent to enter this op-ed in the record 
as well. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    We have had a lot of name calling here, and I am sure that 
makes everybody on the left feel better.
    I don't know Kathleen White as well, obviously, as I do 
Andrew Wheeler, but you said exactly what I was going to say. 
We have people out there that are singing her praises, and you 
don't need to get down in the mud and name calling and these 
things.
    But I do know Andrew Wheeler, and I know Andrew probably 
better than anyone except maybe his mother. Andrew Wheeler has 
been with me for so many years, actually, 14 years. He was a 
counselor in my personal office, and then he was a staff 
director when I chaired the Subcommittee--on the Clean Air 
Subcommittee, and he was the one who, really, I relied on at 
that time. He has been the chief counsel for the EPW, for our 
Committee; he has been majority and minority staff director. We 
have worked on things together that are successful.
    You know, we can be really proud on this Committee because, 
once you get through with all the name calling, we have done so 
many good things. We have accomplished things. I can remember 
when we used to have the Chairman's meeting every Tuesday at 
12:15, and the Republican leader would go around to all the 
different Chairmen, and when it got to me I would say, now, 
from the Committee that actually does things. That was us. We 
did it on a bipartisan basis.
    Well, when we were working with Andrew Wheeler, we did the 
1998 and the 2005 highway bills, huge bills; the Energy Policy 
Act of 2005; the Energy Independence and Security Act of 2007. 
The Clear Skies Act, that was one that was early on. We 
couldn't get Democrats to join in on that, so that ended up not 
being successful. But the Clean Air Interstate Rule, the Diesel 
Emissions Reduction Act, greenhouse gas emission legislation.
    Five out of those seven were successful, and they were all 
huge. And I have to say that I totally relied on Andrew Wheeler 
for the background, the knowledge, the expertise that he has 
demonstrated year after year after year on a very bipartisan 
basis. So, I am just hoping that you folks will remember we 
have had some successes in this Committee and a lot of those 
successes we have had were due to one staffer in particular, 
and that was Andrew Wheeler.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks very much.
    I just want to start off on one positive note. We are going 
to be approving 19 General Services Administration lease 
prospectus resolutions today. Nineteen. Hopefully we will go 19 
for 19. And one of the reasons why we are able to move forward 
is because GSA has acted with sufficient good faith to allow us 
to move forward today, and we are going to do that.
    I want to say, with respect to Andrew Wheeler, I don't know 
him as well as Jim Inhofe does, but during his hearing and in 
response to the questions for the record, I thought that he may 
have demonstrated a more transparent and straight forward 
approach to engaging with members of the Committee than any 
other Trump administration EPA nominee thus far. I find that 
encouraging. I hope that you do, too.
    Senator Inhofe. There is not a lot of competition for that.
    Senator Carper. Some would say that is a low bar.
    [Laughter.]
    Senator Carper. But it is a fact.
    That is as close as I am going to get to name calling here 
today.
    I want to be honest with you. I remain less encouraged with 
Administrator Pruitt's progress in responding to the 31 letters 
requesting information that have been sent to him by our side 
of this Committee. Thus far, he has only adequately responded 
to 12 of those letters. That is better than zero, but six of 
the unanswered letters are more than 6 months old. More than 6 
months old. That is just unacceptable.
    Having said that, it is my understanding that EPA is making 
an effort to respond to more of our letters, and to do so soon, 
and we look forward to reviewing those responses soon. And the 
related documents we have been requesting and receiving 
responses to future oversight inquiries on a timely basis going 
forward.
    I just want to thank my colleagues, a number of whom have 
been very vocal in calling on EPA to do just that, and I think 
the message is getting through.
    Let me say this as clearly as I know how. If the responses 
that are being crafted by EPA now are completed in short order 
and are truly responsive, we will make progress on a number of 
nominations. If the nominations are further delayed or 
unresponsive, that progress may not be realized. I think we 
want progress. So thank you again for those of you who are 
speaking up.
    I want to devote the remainder of my opening remarks this 
morning to the nomination of Kathleen Hartnett White to be the 
White House's top environmental official. The importance of the 
Office of Environmental Quality cannot be overstated; it has 
historically played a vital role in coordinating the efforts of 
all Federal agencies on cost cutting and important 
environmental issues. I know this from a firsthand account from 
one of my earliest mentors, Russell Peterson, who served as the 
CEQ chair during both the Nixon and the Ford administrations, a 
Delawarean.
    Before serving in the White House, Russ Peterson had a 
distinguished career as a chemist and a leader at the DuPont 
Company and went on to serve as Governor of our State from 1969 
to 1973. And despite his being a Republican and me being a 
Democrat, Russ Peterson graciously served as one of my key 
mentors from the time that we met in 1976 until his death in 
2001. He spoke fondly of his time as CEQ Chair, and he 
explained to me on more than one occasion the real importance 
and influence of the job. As CEQ chair, you are kind of like an 
orchestra leader--not playing the instruments, but making sure 
that everyone is playing from the same music and in harmony.
    Make no mistake about it, CEQ's role and responsibility, 
their influence is considerable and consequential; it has been 
for many years. That is why I am deeply disappointed at the 
nomination of Ms. White, whose views I believe are extreme, 
whose words are staggeringly inappropriate, and who shows 
remarkable disrespect for science, the environmental laws that 
are on the books, and our Federal Government.
    I want to just take a minute to look at her record.
    Ms. White refers to renewable energy sources as false hope 
and parasitic. She has called repeatedly for the repeal of 
solar and wind tax credits. She has also called for the repeal 
of the Renewable Fuel Standards repeatedly over the past 
decade, stating the program is counterproductive, ethnically 
offensive, and destructive.
    Ms. White has compared the views of those who believe that 
human activity is causing climate change to be those of pagans 
and communists. Talk about name calling. These are her words; 
these are not mine. She has suggested that policies to reduce 
global warming pollution could lead to poverty and even to 
concentration camps. She has said several times that fossil 
fuels ended slavery.
    Ms. White consistently denies the cause and impacts of 
climate change. She has repeatedly stated that we would benefit 
from more carbon dioxide in our atmosphere, not less. She has 
actively supported groups that promote this extreme point of 
view.
    Moreover, Ms. White has repeatedly contradicted the 
accepted views of previously Republican and Democratic 
administrations alike about the health effects of air 
pollution, saying that ``people do not die of particulate 
matter levels,'' that ``ozone isn't harmful unless you put your 
mouth over the tailpipe of a car for 8 hours a day,'' and that 
the Clean Air Act no longer provides an effective 
scientifically credible or economically viable means of air 
quality management.
    Nothing that Ms. White said at her hearing or in response 
to post-hearing questions provides me with as much as a shred 
of confidence in her suitability for almost any Senate 
confirmed role, let alone one that carries with it the 
responsibility of chairing the Council on Environmental Quality 
in this or some other Administration.
    If she is confirmed to serve in this important leadership 
position, I believe we will have failed in our responsibility 
as United States Senators to provide advice and consent, and we 
will have failed the people of this country. I cannot urge my 
colleagues more strongly to oppose her nomination.
    We sat here, Mr. Chairman--I will conclude with this. We 
sat here for her hearing. I have been sitting through hearings 
here for 17 years. It was painful to watch. It was painful to 
watch, and it was painful to hear, and we should not inflict 
this pain on the people of this country.
    Thanks so much.
    Senator Barrasso. Thank you very much, Senator Carper.
    Anyone else wanting to make a statement on this as we wait 
for the final member for the vote?
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. I was going to wait until after the vote, 
but I will be very brief.
    I want to explain my strong opposition to Ms. Hartnett 
White for the position that she has been nominated to. She 
authored an article indicating one of the worst ways to 
celebrate Earth Day is the signing of the Paris Accords.
    I had the opportunity to be with four of our colleagues in 
Bonn 2 weeks ago to try to represent the U.S. view that we want 
to be part of the international community and the international 
community's efforts to deal with global climate change. We are 
now the only country that has announced that we will not be 
part of these discussions.
    And I have had conversations with members of the 
Administration, including the Secretary of State, who 
recognizes the importance for America to be part of this 
process. I want to make sure that we have people in the 
Administration who understand the importance of the U.S. global 
engagement, and Ms. Hartnett White clearly does not fall into 
that category, and that is why I oppose her nomination.
    Senator Barrasso. Thank you, Senator Cardin.
    Now that the majority and minority have had an opportunity 
to debate and discuss the issues and members have arrived, I 
would like to move the votes on the items of today's agenda. We 
will defer additional statements until the end of voting, and I 
will be happy to recognize any additional members still wishing 
to speak.
    The Ranking Member and I have agreed to bring up the 
nominees to be a member of the CEQ and the Deputy Administrator 
of EPA for separate roll call votes. The Ranking Member has 
requested that each of these nominees receive a separate roll 
call vote. The Ranking Member and I have agreed to vote on the 
19 GSA resolutions en bloc by voice vote, but members may 
choose to have their votes recorded for a specific resolution 
in that bloc after the voice vote.
    To begin, I would like to call up Presidential Nomination 
1101, Kathleen Hartnett White, of Texas, to be a member of the 
Council of Environmental Quality. I move to approve and report 
the nomination favorably to the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Ms. Duckworth.
    Senator Carper. No, by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11, the nays are 10.
    Senator Barrasso. We have approved the nomination of Ms. 
White to be a member of the Council on Environmental Quality, 
which will be reported to the full Senate for approval.
    I would like to now call up Presidential Nomination 1084, 
Andrew Wheeler, of Virginia, to be Deputy Administrator of the 
Environmental Protection Agency. I move to approve and report 
the nomination favorably to the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Ms. Duckworth.
    Senator Carper. No, by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11 and the nays are 
10.
    Senator Barrasso. We have approved the nomination of Mr. 
Wheeler to be Deputy Administrator of the Environmental 
Protection Agency, which will be reported to the full Senate 
for approval.
    I would now like to call up 19 resolutions to approve 
prospectuses providing for the General Services Administration 
leases en bloc. I move to approve 19 General Services 
Administration resolutions en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved 19 GSA resolutions.
    The voting part of the business meeting is concluded. I 
will be happy to stay and recognize any member who wishes to 
make additional statements on the nominations or on the 
resolutions.
    I ask unanimous consent that the staff have authority to 
make technical and conforming changes to each of the matters 
approved today.
    If no one else wants to make a statement, with that, and no 
other business coming before the Committee, the business 
meeting is concluded and adjourned.
    [Whereupon, at 10:32 a.m. the Committee was adjourned.]
    [Presidential nominations and Committee resolutions 
submitted for the record follow:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                [all]
</pre></body></html>
